                        U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL




   AUDIT OF ENVIRONMENTAL MONITORING AND HEALTH PHYSICS
            LABORATORIES AT THE SAVANNAH RIVER SITE



The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
        electronically through the Internet at the following alternative addresses:

                      Department of Energy Headquarters Gopher
                                 gopher.hr.doe.gov

                 Department of Energy Headquarters Anonymous FTP
                                vm1.hqadmin.doe.gov

       Department of Energy Human Resources and Administration Home Page
                             http://www.hr.doe.gov/ig

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.

                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831



  Report Number: ER-B-98-02                          Eastern Regional Audit Office
  Date of Issue: October 24, 1997                    Oak Ridge, Tennessee 37830
 AUDIT OF ENVIRONMENTAL MONITORING AND HEALTH PHYSICS
          LABORATORIES AT THE SAVANNAH RIVER SITE




                               TABLE OF CONTENTS

                                                                                               Page

            SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PART I Ä APPROACH AND OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . 3

           Introduction        ....................................... 3

           Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

           Background          ....................................... 4

           Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

PART II Ä FINDING AND RECOMMENDATIONS . . . . . . . . . . . . . . .                               5

            Inadequate Alternative Evaluation. . . . . . . . . . . . . . . . . . . . . . . 5

PART III - MANAGEMENT AND AUDITOR COMMENTS . . . . . . . . . . 10
                            U.S. DEPARTMENT OF ENERGY
                           OFFICE OF INSPECTOR GENERAL
                             OFFICE OF AUDIT SERVICES

        AUDIT OF ENVIRONMENTAL MONITORING AND HEALTH PHYSICS
                 LABORATORIES AT THE SAVANNAH RIVER SITE



Audit Report Number: ER-B-98-02                                            October 24, 1997

                                         SUMMARY


      The Environmental Monitoring and Health Physics Laboratories at the Department of
Energy's (Department) Savannah River Site are over 40 years old and are approaching the end of
their useful lives. The managing and operating contractor, Westinghouse Savannah River
Company (Westinghouse), and the Savannah River Operations Office (Operations Office)
proposed to build two new facilities to replace them. We conducted this audit to determine
whether the construction of new laboratories was the most cost-effective alternative to
accomplish the site's environmental monitoring and health physics missions.

      Westinghouse did not perform life-cycle cost analyses or properly reassess construction
projects and could not ensure that the construction of new laboratories was the most cost-
effective alternative available to accomplish the site's environmental monitoring and health physics
missions. Department and Federal regulations require that life-cycle cost analyses be prepared to
compare the costs and benefits of various project alternatives. However, the Operations Office
approved plans to construct these laboratories without ensuring that Westinghouse had properly
performed the required analyses. As a result, the Department planned to spend at least $30
million to build laboratories that may not be needed. Based on current cost and pricing data, we
determined that the Department could save $25 million over the life of the project by contracting
the environmental monitoring activities to outside vendors.

      We recommended that the Department (1) direct Westinghouse to perform cost and benefit
analyses to determine whether constructing the new environmental monitoring and health physics
laboratories is more beneficial than contracting out those activities, and (2) develop procedures to
ensure that future validation of construction projects at the Savannah River Site include a
thorough evaluation of all viable alternatives.




                                                 1
      Management did not concur with the finding and with Recommendation 1; however,
management did concur with Recommendation 2. Management stated that a plan to combine the
two laboratories into one represents the most cost effective alternative available. In addition,
most of the environmental monitoring workload was already being contracted to commercial
laboratories, and it was not feasible to contract for the remainder of that workload or for any of
the bioassay analyses because commercial laboratories were either not qualified or could not meet
turnaround requirements. However, management did not provide any documented studies or
requests for proposals to support its position.




                                                           (Signed)____________
                                                      Office of Inspector General




                                                2
                                                  PART I

                                 APPROACH AND OVERVIEW


INTRODUCTION

      Laboratory facilities currently used in performing the Savannah River Site's (SRS)
environmental monitoring and health physics missions are at the end of their useful lives.
Congress approved two separate line-item projects, a $30 million Environmental Monitoring
Laboratory (EML) and a $17 million Health Physics Site Support Facility (HPF), to replace them.
We conducted this audit to determine whether the construction of new laboratories was the most
cost-effective alternative available to accomplish SRS's environmental monitoring and health
physics missions.


SCOPE AND METHODOLOGY

     The audit was performed from November 13, 1996, through July 2, 1997, at the SRS in
Aiken, South Carolina. To accomplish our objective, we:

     •   Toured existing laboratory facilities;

     •   Reviewed the construction planning and approval process;

     •   Evaluated the budget validation and construction project documentation;

     •   Interviewed key project management officials; and

     •   Reviewed previous audit reports related to construction and project management.

       The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with laws
and regulations to the extent necessary to satisfy the audit objective. Accordingly, we assessed
significant internal controls related to the Department of Energy’s (Department) construction
management practices. Because our review was limited, it would not necessarily have identified
all internal control deficiencies that may have existed. Also, we did not conduct a reliability
assessment of computer-processed data because no computer-processed data was used during the
audit.

      In our opinion, the matters discussed in this report identified material internal control
weaknesses within the Department that should be considered when preparing the yearend
assurance memorandum. Internal control weaknesses identified in the report are discussed in Part
II.

     Savannah River Operations Office management waived an exit conference.

                                                  3
 BACKGROUND

       The SRS, located near Aiken, South Carolina, is owned by the Department and is managed
and operated by the Westinghouse Savannah River Company (Westinghouse). Over the past 40
years, SRS used nuclear reactors to fulfill its primary mission of producing tritium and other
radioisotopes for use in defense related activities. In August 1988, the Department shut down the
last of the SRS's three operating reactors and did not anticipate restarting any of these reactors.
Subsequently, SRS's primary mission was changed from producing nuclear materials to managing
the waste products generated during the era of weapons production and restoring the environment
to a level acceptable under current laws and regulations. Environmental monitoring and health
physics activities are an integral part of this new mission.

      Laboratory facilities currently used to perform the environmental monitoring and health
physics missions are over 40 years old and approaching the end of their useful lives. The
proposed EML would provide 54,000 square feet of laboratory, computer, storage, and
administrative space at a total cost of $30 million. The EML mission includes programs for
sampling and analyzing air, water, flora, and fauna from the local area to determine levels of
radioactive and non-radioactive pollutants. The $17 million HPF would be a radiobioassay
laboratory and external dosimeter facility of approximately 25,000 square feet, with another
10,000-square-foot partial basement to house wash-down facilities for the hood exhaust duct and
mechanical fans. The proposed HPF would provide the SRS an up-to-date facility with the
capability to evaluate and document personnel exposure to radioactive hazards. These two
projects are related in that they would share a waste water facility which is scheduled to be built
as part of the overall EML project and then connected to the HPF.

      The Department is going through a period of rapid transformation with changes in
requirements for facilities to support program responsibilities. Priorities have changed from
weapons production to reducing stockpiles, dismantling weapons, ensuring the continued viability
of the enduring stockpile and disposing of waste. These new priorities come at a time of
increasing attention to cutting the cost and size of Government. Ensuring that ongoing or planned
construction projects will meet mission needs becomes more important because of these changes.
A specific objective of the planning process is to ensure that construction projects are needed to
support the mission of the organization and are cost-effective. In initially establishing the mission
need and developing the conceptual design for the project, the planning process requires program
managers to identify and evaluate alternatives to satisfy the identified need.


PRIOR AUDIT REPORTS

      In November 1996, the Office of Inspector General (OIG) issued Report DOE/IG-0398,
Special Report on the Audit of the Management of Department of Energy Construction Projects.
The audit summarized the two primary themes associated with six previous OIG reports that dealt
with the Department's construction process. The report illustrated that construction plans were
not always reassessed when mission needs changed and that there were several cases where
projects were not needed or alternatives to construction were not fully evaluated prior to
proceeding with the construction of new facilities.

                                                 4
                                               PART II

                           FINDING AND RECOMMENDATIONS

                                Inadequate Alternative Evaluation

FINDING

      The Department is responsible for examining all options before acquiring new facilities to
ensure that funds and existing facilities are used effectively. However, alternatives to on-site
construction were not fully evaluated before Westinghouse proposed and the Savannah River
Operations Office (Operations Office) approved construction of new environmental monitoring
and health physics laboratories. Specifically, Westinghouse did not perform life-cycle cost
analyses and periodic reassessments to determine the most cost-effective approach to
accomplishing its environmental monitoring and health physics missions. The Operations Office
approved plans to construct these laboratories without ensuring that Westinghouse had properly
performed the required analyses. As a result, the Department planned to spend at least
$30 million to build laboratories that may not be needed.


RECOMMENDATIONS

       We recommend that the Manager, Savannah River Operations Office:

         1. Direct Westinghouse to perform cost and benefit analyses to determine whether
            constructing the new environmental monitoring and health physics laboratories is
            more beneficial than contracting out those activities; and

         2. Develop procedures to ensure that future validation of construction projects at the
            Savannah River Site include a thorough evaluation of all viable alternatives.


MANAGEMENT REACTION

      Management did not agree with the finding and Recommendation 1; however, management
did concur with Recommendation 2. Following the completion of the audit, management decided
to combine the two laboratories into one new facility. Management stated that the new facility
was the most cost effective alternative available. Management also stated that most of the EML
sample analyses were already being contracted to commercial laboratories, and it was not feasible
to contract for the remainder of the EML workload or for any of the bioassay analyses because
commercial laboratories were either not qualified or could not meet turnaround requirements.
Management's comments are summarized and addressed in Part III.




                                                5
                                     DETAILS OF FINDING


REQUIREMENTS FOR PROJECT EVALUATIONS AND REASSESSMENTS

      Under management streamlining of the construction planning process, Departmental Order
4700.1, Project Management System, was replaced by Departmental Order 430.1, Life Cycle
Asset Management. Both orders require the program manager and the project manager to (1)
verify that planned construction is necessary to meet a valid mission need; (2) independently
identify and consistently evaluate all competing project alternatives; and (3) reassess the need for
planned construction projects when significant events occur, such as a mission change, program
redirection, or program downsizing.

      Also, Office of Management and Budget (OMB) Circulars A-94, Guidelines and Discount
Rates for Benefit-Cost Analysis of Federal Programs, and A-131, Value Engineering, prescribe
methods to ensure that the decisions relative to acquisitions of facilities are based on the most
cost-effective alternatives available. The circulars imply that proper cost and benefit analyses
should include determining the life-cycle costs of each alternative and discounting them to include
the time value of money.


INADEQUATE ALTERNATIVE EVALUATIONS

       Westinghouse's cost and benefit comparisons for the proposed construction projects did not
include all life-cycle costs nor were they periodically revised to assess other alternatives when
conditions affecting workload changed. To perform a proper evaluation of each practical
alternative to constructing the EML and HPF on site, Westinghouse should have determined all
relevant costs associated with acquiring, owning, operating, maintaining, and disposing of the
facilities. Upon determining life cycle costs, Westinghouse should have applied a discount rate to
reflect the time value of money. Also, periodic project reassessments should include reevaluation
of alternatives especially when workload conditions change. Although these projects went
through the Departmental and Operations Office’s approval process, eventually becoming “line-
item” projects, Westinghouse did not perform cost and benefit comparisons that took into account
the life-cycle costs of each alternative.


EML

      Westinghouse provided the Operations Office with data that understated the construction
and operating costs of the EML and overstated the costs of contracting with outside vendors.
For example, in comparing the costs of constructing a new EML to contracting those activities to
outside vendors, Westinghouse did not include the costs of out-year equipment or the eventual
disposal of the new facilities. In addition, Westinghouse did not use the Government discount
rate to account for the cost of money. Instead, Westinghouse estimated that the annual laboratory
cost would be about $5 million based on historical direct costs and estimates of future overhead
and facility costs. If Westinghouse had performed proper life-cycle cost analyses, the annual cost
for building and operating the EML would have been greater.
                                                  6
      Besides understating the cost of the new EML facility, Westinghouse overstated the cost of
contracting out EML activities by not up-dating workload and pricing data. Westinghouse
estimated that it would cost about $5.6 million to contract its current EML workload to outside
vendors based on workload and pricing data obtained in August 1993. Throughout the
Operations Office’s annual validation process, Westinghouse used the same workload and pricing
data it used in August 1993 even though it could have been up-dated. We determined that the
workload requirements and the price of most testing had decreased over time. Our analysis of
1996 workload and 1997 pricing data, provided by Westinghouse, showed that the annual cost of
testing decreased by about $1.9 million from $5.6 million to $3.7 million. Table 1 shows a
comparison of estimated costs using 1993 and current data.



                                           Table 1
                       Comparison of Costs Using 1993 and Current Data

                               Cost Using 1993 Data               Cost Using Current Data
Sample Type                  Quantity Price     Total            Quantity   Price     Total

Gamma Analyses                8,752      $128 $1,120,256            8,130     $ 95     $ 772,350
Gross Alpha/Beta             10,090       152  1,533,680            8,596       67       575,932
Tritium                       7,681        60    460,860            6,202       52       322,504
Plutonium                       788       128    100,864              585      147        85,995
Strontium-89, 90              1,003       212    212,636                0      190             0
Total Strontium               3,042       106    322,452            2,554      117       298,818
Americium/Curium                318       182     57,876            1,064      242       257,488
Uranium/Plutonium             1,417       256    362,752            1,396      271       378,316
Promethium-147                  238       130     30,940              159      103        16,377
Sulfur-35/
Phosphorus-32                   440       130        57,200              0     260                 0

Total Annual Testing                             $4,259,516                           $2,707,780
Add 20 Percent for Quality Control                  851,903                              541,556
Sample Administration                               500,000                              500,000

Total                                            $5,611,419                           $3,749,336



      Contrary to Westinghouse’s cost justification, the annual cost of operating a new EML
on-site would be more than $5 million while the annual cost of contracting out the current EML
workload would be $3.7 million. Using workload and costing data provided by Westinghouse
and discounting for the time value of money, we calculated that the Department would save at
least $25 million over the 40-year life of the project by contracting EML activities to off-site
vendors.


                                                7
HPF

      Westinghouse did not perform a life-cycle cost analysis that demonstrated building a new
HPF on-site was more cost effective than contracting with outside vendors. The HPF Conceptual
Design Report only contained a narrative that stated contracting out was more expensive and less
attractive due to time constraints and the personal nature of the testing results. Neither
Westinghouse nor the Operations Office could provide adequate quantifiable documentation to
support the claim that building a new HPF was less expensive than contracting out. Moreover, as
time passed, the HPF workload decreased and the current workload requirements were never
checked against current prices for contracting out.

      Project management officials performed some analyses to compare on-site testing versus
off-site testing for the HPF. However, as with the EML, there was no analysis of the life-cycle
cost of the new facility, no use of a discount rate, and no meaningful examination of contracting
with off-site laboratories. Management acknowledged that a complete cost and benefit analysis
comparing the cost of building a new HPF versus contracting with off-site vendors had not been
performed. In addition, management acknowledged that circumstances had changed since the
HPF was first submitted as a line-item project.


CONSOLIDATED FACILITY

      Following the audit, the Operations Office determined that it could reduce construction
costs by about $17 million if it consolidated the EML and HPF into a single facility. Management
stated that it would proceed with plans to consolidate the laboratories and seek the approval of
Departmental Headquarters, the Office of Management and Budget, and Congress.

       We agree that the Department could significantly reduce construction costs by
consolidating the EML and HPF into a single laboratory rather than constructing two separate
facilities. However, management did not perform a cost and benefit analysis using life-cycle costs
to determine whether construction of the new facility would be more beneficial than contracting
all or a portion of the effort to off-site vendors. The Operations Office merely compared the cost
of constructing a single facility to the cost of constructing two separate facilities. Without
determining the life-cycle cost of the newly combined laboratory, the Operations Office cannot be
certain that this approach is more cost effective than contracting with off-site laboratories.




                                                8
PROJECT VALIDATION

      This condition occurred because the Operations Office initially validated the two laboratory
projects in 1993 and 1994 without requiring Westinghouse to perform life-cycle cost analyses.
Also, SRO revalidated them in subsequent years without ensuring that Westinghouse had properly
evaluated each alternative. Operations Office management stated that the validation process did
not require that alternative evaluations be addressed. The validation merely concluded that the
chosen alternative was feasible and ready for initial design work. Although a project normally
went through the validation process several times, the Operations Office did not require each
alternative to be thoroughly evaluated.


POTENTIAL COSTS

       As a result, the Department plans to spend at least $30 million to construct new laboratory
facilities that may not be needed. Based on our review of workload and costing information
provided by Westinghouse, the Department could save up to $25 million over the life of the
project by contracting EML activities to off-site vendors. We did not perform a similar life cycle
analysis of the HPF because Westinghouse was unable to provide sufficient cost data to allow us
to perform one.




                                                 9
                                            PART III

                       MANAGEMENT AND AUDITOR COMMENTS


      Management did not concur with the audit finding and the recommendation that
Westinghouse be required to perform cost and benefit analyses to evaluate all viable alternatives
for the construction of the new laboratories. Management did concur, however, with the
recommendation that it develop procedures to ensure that all viable alternatives are thoroughly
evaluated for future construction projects. Management's specific comments are summarized and
addressed below.

Recommendation 1: Direct Westinghouse to perform cost and benefit analyses to determine
whether constructing the new environmental monitoring and health physics laboratories is more
beneficial than contracting out those activities.

      Management Comments. Management did not concur with the recommendation, stating
that the plan to combine the two laboratories into one was the most cost-effective approach
available. In addition, management stated that 85 to 90 percent of the EML sample analyses are
already contracted out, and it is not feasible to contract out the remaining workload.
Management stated that the analyses must be performed on-site due to the quick response times
required to meet the demands of environmental regulators and Westinghouse's subcontractors and
to perform specialized analyses. The Operations Office considered outsourcing the HPF
workload, but determined that acceptable turnaround times for incident or job related bioassay
analyses could not be achieved under any known long-term agreement with an existing
commercial laboratory. Also, management stated that the EML and HPF projects were planned in
accordance with Departmental policy and were the subject of many studies, including reviews by
the Office of Inspector General, the General Accounting Office, the Office of Management and
Budget, and Congressional staff.

      Auditor Comments. Management cannot be certain that constructing and operating the
combined EML and HPF is more cost-effective than contracting out those activities because it did
not perform the required life-cycle cost analysis and compare it to the life-cycle cost of
contracting out. Management did not provide any documented analyses or requests for proposals
to support its position that no commercial laboratories could achieve acceptable turnaround times
for either the EML or HPF workload. Furthermore, documents provided by management
indicated that there are commercial laboratories that can perform the EML and HPF workload,
but were not considered due to perceived problems with turnaround times and quality. Also,
although several internal and external reviews of the Site's construction projects were performed
in recent years, the reviews were not an acceptable substitute for a life-cycle cost and benefit
analysis for the construction of the EML and HPF laboratories. Finally, the new laboratory
project, initiated in July 1997, falls under the authority of Department Order 430.1 which requires
that a life-cycle analysis be performed prior to commencement of the project.




                                                10
Recommendation 2. Develop procedures to ensure that future validation of construction projects
at the Savannah River Site include a thorough evaluation of all viable alternatives.

      Management Comments. Management concurred, stating that the Operations Office will
assure that the current draft Savannah River Implementation Plan for Life-Cycle Asset
Management will contain specific requirements relative to the need for evaluation of all viable
alternatives.

       Auditor Comments. Management's comments are partially responsive to the
recommendation. Management's action will be fully responsive to the recommendation provided
the draft policy requires Westinghouse to compare the life-cycle cost of each viable alternative to
the life-cycle cost of the chosen alternative during the annual validation process. In addition,
management should establish a target date for issuing the new policy.




                                                11
                                                                IG Report No.ER-B-98-02




                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

       1.      What additional background information about the selection,
               scheduling, scope, or procedures of the audit or inspection would
               have been helpful to the reader in understanding this report?

       2.      What additional information related to findings and
               recommendations could have been included in this report to assist
               management in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have made this
               report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General have taken
               on the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector General
at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       U.S. Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.




                                                12
